<html>
<title> - MAKING EPA GREAT AGAIN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                         MAKING EPA GREAT AGAIN

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            February 7, 2017

                               __________

                           Serial No. 115-01

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-628 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
      
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana

                            C O N T E N T S

                            February 7, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     9
    Written Statement............................................    10

                               Witnesses:

The Honorable Jeffrey Holmstead, Partner, Bracewell LLP
    Oral Statement...............................................    11
    Written Statement............................................    14

Dr. Kimberly White, Senior Director, Chemical Products and 
  Technology, American Chemistry Council
    Oral Statement...............................................    19
    Written Statement............................................    21

The Honorable Rush Holt, CEO, American Association for the 
  Advancement of Science
    Oral Statement...............................................    30
    Written Statement............................................    32

Dr. Richard Belzer, Independent Consultant
    Oral Statement...............................................    37
    Written Statement............................................    39

Discussion.......................................................    52

             Appendix I: Answers to Post-Hearing Questions

The Honorable Jeffrey Holmstead, Partner, Bracewell LLP..........    82

Dr. Kimberly White, Senior Director, Chemical Products and 
  Technology, American Chemistry Council.........................    88

The Honorable Rush Holt, CEO, American Association for the 
  Advancement of Science.........................................    91

Dr. Richard Belzer, Independent Consultant.......................    95

            Appendix II: Additional Material for the Record

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   102

Documents submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   113

Documents submitted by Representative Randy K. Weber, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   187

Documents submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   190


                         MAKING EPA GREAT AGAIN

                              ----------                              


                       TUESDAY, FEBRUARY 7, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to other business, at 11:04 
a.m., in Room 2318, Rayburn House Office Building, Hon. Lamar 
Smith [Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Welcome to today's hearing entitled ``Making the EPA Great 
Again.'' I'll recognize myself for an opening statement and 
then the Ranking Member.
    Today, we will examine how the Environmental Protection 
Agency evaluates and uses science in its regulatory decision-
making process.
    Sound science should be at the core of the EPA's mission. 
Legitimate science should underlie all actions at the Agency, 
from research to regulations, and be an integral part of 
justifying their actions. Unfortunately, over the last eight 
years, the EPA has pursued a political agenda, not a scientific 
one.
    Time and again, we saw the EPA under the Obama 
Administration propose regulations that would have no 
significant impact on the environment. For example, the so-
called Clean Power Plan, proposed by the EPA last June, set 
impossible targets for carbon emissions. Yet even EPA data 
shows that this regulation would only eliminate a miniscule 
amount of global carbon emissions and would reduce sea level 
rise by only 1/100 of an inch. In fact, the EPA has proposed 
some of the most expensive and expansive and ineffective 
regulations in history.
    The rules proposed and finalized by the EPA placed heavy 
burdens on American families. Often, huge costs were shouldered 
by the taxpayer with little to show for it. And the EPA 
routinely relied on questionable science based on nonpublic 
information that could not be reproduced, a basic requirement 
of the scientific method. Americans deserve to see the science 
for themselves. If the EPA had nothing to hide, why didn't it 
make the scientific data it used for its regulations publicly 
available? What was the EPA hiding?
    The Committee conducted oversight of EPA's use of suspect 
science to justify its claims. Our hearings culminated in 
legislation that required the EPA to make its data publicly 
available.
    With the transition to a new Administration, there is now 
an opportunity to right the ship at the EPA and steer the 
Agency in the right direction. The EPA should be open and 
accountable to the American people and use legitimate science. 
Though ignored by the previous Administration, the EPA does 
have internal processes to ensure this accountability. The 
internal review process at the EPA should be restored and 
strengthened.
    The Science Advisory Board provides critical feedback to 
the EPA on its proposals, but in recent years, SAB experts have 
become nothing more than rubberstamps who approve all of the 
EPA's regulations. The EPA routinely stacks this board with 
friendly scientists who receive millions of dollars in grants 
from the federal government. The conflict of interest here is 
clear.
    Fortunately, the EPA can once again become an agency that 
is credible and respected. Simple changes, such as eliminating 
conflicts of interests, adding more balanced perspectives, and 
being more transparent can go a long way to restoring the 
Agency's credibility.
    In recent years, the EPA has sought to regulate every facet 
of Americans' way of life. Instead, we should invest in 
research and development and let technology lead the way. Far 
too often, the EPA has deliberately used its regulatory power 
to undercut American industries and advance a misguided 
political agenda that has minimal environmental benefit. The 
new Administration has the opportunity to let technology and 
innovation protect our environment without government mandates 
that impose costly and unnecessary regulations on the American 
people. The EPA should focus on environmental policies that can 
be justified and are based on good science.
    Lastly, recent news stories report that another agency, 
NOAA, tried to deceive the American people by falsifying data 
to justify a partisan agenda. A senior scientist at NOAA has 
questioned the scientific integrity of a study written by Tom 
Karl while at NOAA that claimed that there was no stop in 
global warming from 1998 to 2013. This official has provided 
evidence that Karl ``had his thumb on the scale'' throughout 
the entire process. The Karl study was published in Science, 
the journal overseen by the American Association for the 
Advancement of Science.
    In light of this new information, AAAS and Science should 
retract the Karl study. The Committee will continue our 
investigation of NOAA's refusal to provide the Committee with 
responsive documents on this subject.
    It is clear that the Committee's investigation is 
justified. Although NOAA, AAAS, and others attempted to block 
the Committee's efforts, our goal remains to ensure that the 
scientific process funded by the American taxpayer is in fact 
open and honest.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, Ms. Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and let me 
thank our witnesses for being here today. In particular, I'd 
like to thank our former colleague in the House, Dr. Rush Holt, 
a scientist, for being here to share his unique perspective.
    I would also like to welcome to the Committee our new 
colleagues on both sides of the aisle. I stated at our 
organizational meeting this morning it is my hope that we will 
be able to find common ground together on important issues this 
Congress.
    With that said, I'm disappointed but not really surprised 
our very first hearing of this Congress will be focused on 
attacking the Environmental Protection Agency, as was so often 
the theme of our hearings the last Congress.
    I would also note that, of the witnesses invited by the 
majority to testify today, we have a lobbyist for the industry, 
a representative from an industry trade group, and a consultant 
for the industry. That is not a panel likely to produce an 
objective examination of EPA's activities.
    The efforts by some to undermine how the EPA and other 
federal agencies use science threatens our economy, threatens 
public health, threatens the environment, threatens public 
confidence in our government. This is especially true when such 
efforts rely on biased, incomplete, and misleading information, 
alternative facts, if you will, in an attempt to advance a 
probably false narrative against EPA. Regulatory activity to 
protect public health and the environment should be supported 
by robust analyses of the best available scientific evidence. 
That is what EPA does. Policies geared toward preemptively 
limiting scientific input into the process undermine EPA's 
ability to take justifiable actions to protect the American 
public. Questioning the credibility of the scientific process, 
casting doubt on the scientific research used by EPA, or 
selectively limiting what resources--what sources of scientific 
information EPA may consider jeopardizes the effectiveness of 
the only government agency specifically tasked to protect human 
health and the environment.
    Simply put, limiting the science EPA uses only serves to 
limit the actions EPA may take to protect public health and the 
environment. I hope that my colleagues will listen today with a 
critical ear and ask themselves whether they want to support 
policies that will harm future generations instead of 
empowering them, remove public health safeguards instead of 
strengthening them, and reverse the progress made over the last 
40 years instead of working to find a constructive path 
forward.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Chairman Smith. Okay. Thank you, Ms. Johnson.
    And I'll proceed to introduce our witnesses today. Our 
first witness is the Hon. Jeffrey Holmstead, a partner at 
Bracewell. Mr. Holmstead is one of the country's leading air 
quality lawyers and heads the Environment Strategies Group at 
Bracewell. He previously served as the Assistant Administrator 
at the EPA for the Office of Air and Radiation. He also served 
on the White House staff as Associate Counsel to former 
President George H.W. Bush. Mr. Holmstead received his 
bachelor's degrees in economics and English from Brigham Young 
University and his law degree from Yale.
    Our second witness today is Dr. Kimberly White, Senior 
Director in the Chemical Products and Technology Division of 
the American Chemistry Council. For the past five years, Dr. 
White has served as a scientific advisor to industry for the 
development and execution of research to assess chemical 
hazards. She also has worked to identify emerging issues and 
trends in science policy and risk evaluation. Dr. White 
received her bachelor's and master's degrees in biology and a 
Ph.D. in environment toxicology from Texas Southern University.
    Our third witness is the Hon. Rush Holt, CEO of the 
American Association for the Advancement of Science. Dr. Holt 
has held positions as a teacher, scientist, administrator, and 
policymaker. From 1987 to 1998 he was Assistant Director of the 
Princeton Plasma Physics Laboratory, a Department of Energy 
national lab. Dr. Holt served for 16 years as a Member of the 
U.S. House of Representatives representing New Jersey's 12th 
Congressional District. In Congress, he was a member of the 
Natural Resources Committee and the Education and the Workforce 
Committee. Dr. Holt received his master's degree and Ph.D. in 
physics from New York University.
    Our final witness today is Dr. Richard Belzer, independent 
consultant and former economist at the Office of Information 
and Regulatory Affairs. There, he was responsible for reviewing 
regulatory analyses prepared by the EPA, the Food and Drug 
Administration, and various components of the Departments of 
Agriculture, Commerce, Energy, and the Interior. Dr. Belzer has 
been an independent consultant in regulatory policy, economics, 
and risk analysis. In addition, he is the President of 
Regulatory Checkbook and the managing editor of 
NeutralSource.org. Dr. Belzer received his bachelor's and 
master's degrees in agricultural economics from the University 
of California at Davis and his master's and Ph.D. in public 
policy from Harvard University.
    We welcome you all and appreciate your attendance today. 
And, Mr. Holmstead, we'll begin with your testimony.

         TESTIMONY OF THE HONORABLE JEFFREY HOLMSTEAD,

                     PARTNER, BRACEWELL LLP

    Mr. Holmstead. Thank you very much. Good morning. As the 
Chairman mentioned, I am a partner at the law firm of 
Bracewell, LLP, but I do want to make it clear I am not 
appearing on behalf of any clients this morning. I am here to 
share my own views as a former EPA official and as someone in 
private practice, who has spent more than 25 years working with 
EPA on a range of issues.
    I want to start by saying I do believe that EPA plays a 
vital role in protecting human and the environment, but I also 
know that there are opportunities to improve the way the Agency 
operates and makes decisions.
    This morning, I would like to talk briefly about three 
reforms that would improve the way science is evaluated and 
used by the Agency. First, I would like to endorse this 
Committee's efforts to ensure that the scientific and technical 
information that is used to support regulatory decisions is 
publicly available in a manner that allows for independent 
analysis. This is where the science reform--the Secret Science 
Reform Act can make important and meaningful reforms.
    The only legitimate concern that I have heard about this 
legislation is that in some cases data that is used to support 
rulemaking might include medical or other personal information 
about specific individuals and should not be released because 
of privacy concerns. I think this is a red herring. Certainly, 
no one believes that such information should be made public, 
but I cannot imagine the case in which personal information 
about any particular individual would be needed to support the 
types of regulatory actions taken by EPA. I do understand that 
documentation used in some studies does contain personal 
information, but names, addresses, and any other identifying 
information could and must be redacted before any such 
information is made public.
    EPA would certainly incur cost to review data and ensure 
that personal information is redacted before it is made public, 
but when regulations impose billions of dollars on consumers 
and businesses, it is surely appropriate for the government to 
spend a tiny fraction of this amount to ensure that the 
scientific information used to support those regulations can be 
publicly available.
    Second, I believe it is important to reform the Science 
Advisory Board, which is generally known as the SAB, and other 
advisory groups that provide scientific and technical advice to 
EPA. Such groups are referred to as independent advisory 
committees, but the EPA Administrator appoints the members of 
these groups based on recommendations from EPA staff. Not 
surprisingly, EPA staffers tend to recommend people who share 
their views about the issues under consideration. There's no 
question that the members of the SAB and other advisory panels 
are well-qualified, but there are other scientists and 
researchers who are equally well-qualified but who do not get 
appointed because they may be more skeptical about EPA's views 
on certain important issues.
    The SAB Reform Act would help to ensure that EPA decisions 
are influenced by experts from a variety of fields and 
backgrounds that are relevant to the issues under 
consideration. By focusing on disclosure rather than 
disqualification, the SAB Reform Act would allow for a wider 
range of viewpoints while ensuring that any possible conflicts, 
financial or otherwise, are publicly disclosed.
    Third, I would ask this Committee to continue to look at 
the need to reform EPA's Integrated Risk Information System, 
which is generally known by the acronym of IRIS. The IRIS 
program evaluates specific chemicals to which the public may be 
exposed and then sets reference values that are used in a 
variety of EPA and state regulatory programs. Unfortunately, 
outside experts believe that the IRIS program often overstates 
the actual risk posed by these specific chemicals.
    EPA is inclined to be conservative in making both 
regulatory decisions and scientific conclusion. For example, if 
there are three well-conducted--I'm sorry. If there are five 
well-conducted studies finding that a substance poses very 
little risk and one that finds a higher risk, EPA will 
typically place much more weight on the one rather than the 
five. Some argue that this is appropriate and that EPA should 
always err on the side of being overly protective. But this is 
an issue for policymakers, not for scientists. When decisions 
are made based on overly conservative science, it can mislead 
the public and impose unnecessary regulatory burdens on 
society.
    As this Committee considers how to improve the way that EPA 
deals with scientific and technical issues, I hope it will 
consider potential reforms to the IRIS program as well.
    I thank you for giving me the chance to testify this 
morning, and I look forward to answering any questions that you 
may have.
    [The prepared statement of Mr. Holmstead follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Smith. Thank you, Mr. Holmstead.
    Dr. White.

                TESTIMONY OF DR. KIMBERLY WHITE,

                        SENIOR DIRECTOR,

               CHEMICAL PRODUCTS AND TECHNOLOGY,

                   AMERICAN CHEMISTRY COUNCIL

    Dr. White. Good morning, Chairman Smith, and Members of the 
Committee. My name is Dr. Kimberly White, a scientist with the 
American Chemistry Council. And I appreciate this opportunity 
to testify regarding EPA's use of science in its regulatory 
decision-making process.
    The business of chemistry is a critical component for 
manufacturing safe, high-quality products. ACC member companies 
and the public rely on science to spur innovation, advance 
product stewardship, and improve the assessments of chemical 
risk. Similarly, they expect high-quality science and objective 
assessment processes to underpin regulatory decisions by the 
federal government.
    ACC has long maintained that EPA chemical assessments can 
and should reflect the most up-to-date and relevant science 
regarding potential impacts to human health and the environment 
from chemical exposures. Although EPA has made efforts to 
improve its scientific approach, the actual implementation has 
been slow and often lacking. This has been fundamentally due to 
the lack of a consistent science-based framework for conducting 
chemical evaluations. In 2016, Congress passed the Lautenberg 
Chemical Safety Act or the LCSA, which provides EPA a mandate 
for use of the best-available science and a weight-of-evidence 
approach in conducting risk evaluations for both new and 
existing chemicals. Implementing these new provisions under the 
LCSA will require significant changes to EPA's scientific 
evaluation procedures.
    Unfortunately, as indicated in EPA's proposed framework 
rule for risk evaluation, EPA believes existing practices meet 
the standards of the LCSA. ACC does not support this belief and 
will continue fostering approaches to advance the technical 
quality and objectivity of scientific evaluations, particularly 
by promoting more transparency in both what science is being 
considered and how that information is interpreted.
    My oral testimony today focuses on four areas to improve 
science evaluations at EPA, and my written testimony provides 
additional detail and some specific examples.
    First, EPA should ensure that its chemical assessments 
address information needs of decision-makers and are fit for 
purpose. This includes clearly defining the scope of the 
evaluation, the methods to be used, and the utility of the 
evaluation for regulatory decisions. EPA is currently 
interpreting the LCSA as requiring the Agency to evaluate all 
uses of a chemical. However, the LCSA clearly indicates that 
EPA has discretion to select those conditions of use for its 
scope of their risk evaluation. A clear scoping step allows the 
Agency to determine if a screening-level assessment identifies 
risk sufficiently or if a more refined risk evaluation is 
needed. This approach also enables EPA to meet the stringent 
deadlines of the LCSA and focus resources on those conditions 
of use where unreasonable risk cannot be ruled out.
    Secondly, scientific evaluations must utilize transparent 
and consistent criteria for selecting the most relevant, high-
quality science and evaluating the evidence to draw 
conclusions. It is critical that EPA rely on studies of the 
highest quality, not simply those studies that produce the 
lowest points of departure or the highest exposure estimates.
    Thirdly, EPA should employ a transparent weight-of-evidence 
framework that integrates evidence from human studies, animal 
research, and mechanistic data. The LCSA requires risk 
evaluations to integrate and assess available information on 
hazard and exposures for the conditions of use. The LCSA also 
requires EPA to make decisions using a weight-of-evidence 
approach.
    Lastly, EPA must implement an effective peer-review 
process. Peer review should be independent and objective, 
allowing for robust engagement with stakeholders to provide a 
thorough review. It should also include a quality-assurance 
process that explicitly evaluates whether peer-review 
recommendations and public comments were completely and 
adequately addressed.
    In conclusion, ensuring that up-to-date, high-quality 
science underlies EPA decision-making is critical to protecting 
human health and the environment. This can be achieved by 
consistent applications of processes throughout EPA to conduct 
risk evaluations using a weight-of-evidence process, as 
required by the LCSA.
    Thank you for this opportunity to provide testimony, and I 
look forward to working with members of the Committee to ensure 
that high-quality science is the foundation for the Agency's 
decision-making.
    [The prepared statement of Dr. White follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman Smith. Thank you, Dr. White.
    And, Dr. Holt.

           TESTIMONY OF THE HONORABLE RUSH HOLT, CEO,

                    AMERICAN ASSOCIATION FOR

                   THE ADVANCEMENT OF SCIENCE



    Dr. Holt. Good morning, Chairman Smith and Ranking Member 
Johnson and esteemed Members of the Committee. Thanks for the 
opportunity to testify today on behalf of the American 
Association for the Advancement of Science, the AAAS. AAAS is 
the largest general science membership society, publisher of 
the Science family of journals, and our mission is simple: to 
advance science, engineering, and innovation throughout the 
world for the benefit of all people.
    The hearing today, as I understand it, is general and not 
about specific bills, so I will talk in general about the use 
of good science as a basis for policy and regulation.
    I'm pleased to note from the title of today's hearing that 
the Committee acknowledges that the EPA has been great. The 
success of EPA is really because the environment regulations of 
past decades have been based--such as the Clean Air Act--have 
been based on science. And that sets this EPA apart from a 
number of other regulatory agencies. It has worked.
    I want to state from the outset that I don't want my 
presence here to be construed as advocating for a specific 
environment legislation. I want to talk about science and the 
process by which science is conducted. It must be recognized as 
the most reliable pathway to knowledge and the best basis for 
making public policy and regulations. Science is not a 
political construct or a belief system. It provides testable, 
fundamental knowledge of the world and how things work. It's a 
set of principles dedicated to discovery and the use of 
evidence to continually test those discoveries.
    And although science gets a great deal of credit for 
advancing our understanding of the world, I think it is less 
understood for its foundational quality, humility in the face 
of evidence, and over time, when one's cherished beliefs and 
partisan ideologies and wishful thinking have turned out to be 
wanting, the scientific evidence is most likely to remain. We 
need more reverence for evidence in our policymaking. Without 
reverence for evidence and by extension evidence-based 
policymaking, our country's future is compromised.
    Science is not static. That's why the process of science 
can converge on reliable knowledge. Science does not deal in 
cut-and-dried facts, ever-immutable. Sometimes, we'll see the 
science push aside an understanding for a better, more 
verifiable understanding. That's the job of scientists through 
the scientific process, not the job of politicians second-
guessing the scientific process.
    However attractive any of us may find our own belief at any 
time, one's odds of success are better if one goes with the 
scientifically established thinking. Scientific progress 
depends on openness, transparency, the free flow of ideas and 
people. These are principles that have helped the United States 
attract and benefit from science talent, from the Apollo 
program and exploring the far reaches of the universe, to 
advancing biomedical research for curing disease, to harnessing 
science to build a thriving high-tech sector. The United States 
has been a leader in science, in education, and in innovation. 
And the principles are the same principles that have allowed 
EPA to base their regulations on science.
    Furthermore, scientists, whether industry, academia, or 
government, must have confidence that they can conduct their 
work in an atmosphere free of intimidation and undue influence. 
Policymakers should never dictate the conclusions of a 
scientific study, and they should base policy on a review of 
relevant research and provisions of relevant studies. In other 
words, the integrity of the process must be upheld.
    During the Bush and Obama Administrations, federal agencies 
worked to develop and implement scientific integrity and access 
to date policies. This bipartisan recognition of strengthening 
the scientific integrity in federal agencies lays a good 
foundation that should not be weakened. In other words, I'm 
here to say don't try to reform the scientific process. It has 
served us well and will serve us well.
    I thank you again for the invitation to testify, and I look 
forward to working with you in this Congress.
    [The prepared statement of Dr. Holt follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman Smith. Thank you, Dr. Holt.
    And, Dr. Belzer.

                TESTIMONY OF DR. RICHARD BELZER,

                     INDEPENDENT CONSULTANT

    Dr. Belzer. Thank you, Chairman Smith, Ranking Member 
Johnson, Members of the Committee. Thank you again for the 
opportunity to testify today. My testimony is informed by 30-
plus years of experience with environment science and 
economics, and I'm not testifying on behalf of any past or 
present client. Most of my recent consulting work has involved 
intellectual property, and I don't think that's related at all 
to EPA.
    In 1983, then-Administrator Bill Ruckelshaus wrote an 
article published in Science that ``Risk assessment at EPA must 
be based only on scientific evidence and scientific consensus. 
Nothing will erode public confidence faster than suspicion that 
policy considerations have been allowed to influence the 
assessment of risk.''
    But EPA risk assessments are chock full of policy 
considerations, so it should be no surprise that public 
confidence in the EPA has eroded, as Ruckelshaus predicted. You 
need not and should not take my word for it. In 2004, the EPA's 
science advisor published a report on the Agency's risk-
assessment practices. The science advisor defended these 
practices as follows, ``EPA seeks to adequately protect public 
health and environmental health by ensuring that risk is not 
likely to be underestimated.''
    Now, under the Ruckelshaus principle, when asked to measure 
a mouse, EPA is not supposed to give dimensions closer to that 
of an elephant because elephants are riskier, which they are. 
The EPA's science advisor justifies mistaking mice for 
elephants because EPA is ``a health and environmental 
protective agency.'' That's a non sequitur.
    The Central Intelligence Agency is a national security 
agency. Would that justify exaggerating the risk that Iraq 
possessed weapons of mass destruction? No. But it is just as 
improper for EPA to exaggerate the human health risks of 
contaminants in drinking water, chemicals in commerce, or 
pollutants in the atmosphere.
    When any agency exaggerates risk, it undermines responsible 
regulatory decision making, and it does so three ways. First, 
it scares the public, which cannot discriminate between large 
and small risks if agencies exaggerate. Second, it undermines 
the accurate estimation of benefits from regulation. 
Exaggerated risk estimates lead to exaggerated benefit 
estimates. Third, it usurps the authority of the head of the 
Agency, who is charged by Congress with making oftentimes hard 
choices. He can't do that with unreliable information. And if 
he figures out that he's being sandbagged by his own staff and 
decides to ignore what he's being told, he will be accused of 
ignoring science.
    In my written testimony, I explain why EPA's safety 
assessments are not scientific, and I use EPA's definition of 
the reference dose, a copy of which is distributed to you, but 
here's the definition. A reference dose is an estimate with 
uncertainties spanning perhaps an order of magnitude of a daily 
oral exposure to the human population, including sensitive 
subgroups, that is likely to be without an appreciable risk of 
a deleterious effect during a lifetime.
    Now, an order of magnitude we understand. That's a factor 
of 10. But what is perhaps an order of magnitude? Does it mean 
less than 10, more than 10, a lot more than 10? Could it be 10? 
It could be 1,000. It could be 10,000. We don't know. What is 
an appreciable risk of a deleterious effect? How bad must an 
effect be to qualify as deleterious? What is an appreciable 
risk of experiencing such a thing? Now, these are not 
scientific terms. These are policy terms? Whose personal 
opinions inform these choices? This is a definition only a 
lawyer could love and quite possibly only a lawyer could 
justify.
    There's a great deal of interest in transparency, and I've 
highlighted the reference dose definition because almost every 
issue of transparency arises downstream of obscure definitions 
like this. Even if every other transparency issue were solved, 
the most fundamental opacities in EPA risk and safety 
assessments would remain.
    Now, probably the most effective thing Congress can do to 
improve the quality of EPA science or any agency's science is 
to require that they adhere to the principles and procedures 
set forth in OMB's Information Quality Guidelines. These 
guidelines have been available--been out for 15 years, but 
there's very little to show for it because agencies do not 
comply, and they don't comply because no one has standing in 
federal court to compel them to comply.
    I'm happy to look forward to any questions you might have 
and expand upon this at your leisure.
    [The prepared statement of Dr. Belzer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Smith. Thank you, Dr. Belzer.
    Before we get to questions, I'd like to ask unanimous 
consent that the gentleman from California, Jerry McNerney, be 
allowed to participate in today's hearing. He has been selected 
to serve on the Science Committee, and his official appointment 
is imminent. So, Jerry, we welcome you back.
    Mr. McNerney. Well, I thank the Chairman. I've spent two 
terms on this Committee, so it's a great thing to be back, and 
I look forward to our work together.
    Chairman Smith. Absolutely. I thank the gentleman from 
California for his comments.
    Let me recognize myself for questions. And, Dr. White, I'll 
address my first question to you, and that is why would the EPA 
hide data that they say justifies regulations from the American 
people, and why should that data be made public? Turn on your--
--
    Dr. White. There we go.
    Chairman Smith. Yes.
    Dr. White. Transparency in the way that EPA evaluates its 
science and what data it selects to underlie its decision-
making is extremely important. So that information should be 
made available so that folks can actually go through and 
evaluate those scientific evaluations.
    One of the things that we do need to take into 
consideration as making that data publicly available is that 
there are adequate protections for confidential business 
information to ensure that we keep innovation and 
competitiveness available for the marketplace.
    Chairman Smith. Okay. Thank you, Dr. White.
    And, Mr. Holmstead, does the EPA use a biased modeling 
system to calculate and determine the benefits from its 
proposed regulations? And if so, why can that not be justified?
    Mr. Holmstead. Well, thank you for the question. I think at 
least for the last few years EPA has used methodologies that 
clearly overstate the benefits of their regulations. And I'm 
happy to submit something that would provide you a bit more 
detail, but let me just summarize very quickly. Virtually any 
air regulation that's been done over the last eight years is 
based on the benefits of a single pollutant known as PM2.5 or 
fine particles. And people are surprised when they understand 
this. EPA issues a regulation for mercury, EPA issues a 
standard for ozone, EPA issues a standard for diesel emissions, 
and yet, when you look at the underlying evaluation, EPA's 
claim is all of these things are justified because in some 
fashion EPA predicts that that will reduce levels of fine 
particles in the environment.
    There is a whole other program for regulating these 
chemicals. There's a way of evaluating them, and yet the 
benefits that EPA claims is consistent--is--I'm sorry, is 
completely inconsistent with the way they do it in this other 
program. So, again, this is an issue that probably deserves 
more than a short answer, and I'd be happy to provide that to 
you. But there's no question that EPA has started to use cost-
benefit analysis as a way to promote its regulations rather 
than a tool that can be used to inform good regulatory 
decisions.
    Chairman Smith. Okay. Thank you for that response. And yes, 
we'll take the details and we'll make them a part of the record 
as well.
    Dr. Belzer, let me ask you about cost-benefit analysis and 
why should there be a cost-benefit analysis for all EPA 
regulations?
    Dr. Belzer. Mr. Chairman, it comes to benefit-cost I'll 
say--that would be the appropriate term, by the way--benefit-
cost I'll say--I finished eight years as Treasurer--Secretary 
Treasurer at the Society for Benefit-Cost Analysis, and so I am 
an avid defender and advocate of practice. And the reason is 
fairly simple, that it is impossible for decision-makers, 
whether in an agency or on Capitol Hill, to understand what the 
implications are of actions that are being taken without 
benefit-cost analysis. It can't be done without that. 
Otherwise, it's based on emotion, it's based on politics, based 
on cronyism. It's based on other factors.
    But--and also I would say it can't be based on science 
because science is the underpinning to the benefits assessment 
in a benefit-cost analysis. So agencies should be doing that 
all the time, and it's also cost-effective. It costs relatively 
little money to do a benefit-cost analysis, and it can save an 
enormous amount of regulatory costs and it can also 
dramatically improve the benefits of a regulation.
    I'm particularly fond of one that I managed when I was at 
OMB, which the Department of Agriculture was trying to ban a 
product, and they were going about it all--in a way that made 
no sense scientifically and economically. With help, I was able 
to change the justification for it, and they were successfully 
able to ban this product because people were dying from it. 
Without the analysis, that can't be done. That would have been 
litigated, and the Department of Agriculture would have lost.
    Chairman Smith. Okay. Thank you, Dr. Belzer.
    And, Dr. Holt, my last question for you. The editor-in-
chief of your publication Science recently said ``Dr. Bates 
raises some serious concerns. After the results of any 
appropriate investigations, we will consider our options,'' and 
those options ``could include retracting that paper.''
    Dr. Bates is a well-respected scientist who was given one 
of NOAA's highest awards for developing standards for 
preserving climate data records. Are AAAS and Science committed 
to taking his allegations seriously and launching a thorough 
investigation?
    Dr. Holt. I think you're referring to the Karl paper that 
appeared in Science a couple of years ago, and the blog that 
appeared over the weekend--this past weekend by one former 
scientist Mr. Bates--Dr. Bates from NOAA. Dr. Bates said in an 
article published today the issue here is not an issue of 
tampering with data. He does not--then further it is written he 
does not believe that they manipulated the data. All he is 
doing ``is calling out a former colleague for not properly 
following agency standards.'' This is not the making of a big 
scandal. This is an internal dispute between two factions 
within an agency.
    Chairman Smith. Right. I--Dr. Holt, I've----
    Dr. Holt. There's nothing in the paper, the Karl paper, 
that, at our current analysis, suggests retraction.
    Chairman Smith. Well, I am----
    Dr. Holt. We are always looking at our papers to see 
whether there is anything----
    Chairman Smith. Dr. Holt, my time----
    Dr. Holt. --truly erroneous.
    Chairman Smith. My time is up. I encourage you to talk to 
Dr. Bates because everything that I have read that he has said 
about the Karl report suggests to me that NOAA cheated and got 
caught. They did falsify the data to exaggerate global warming. 
The Karl study cannot be replicated because, supposedly, the 
computer crashed maybe like the computer at the IRS and the 
EPA. And clearly, he suggests that the Karl study violated 
scientific integrity rules. To me, all that adds up to an 
investigation and possibly a retraction. I just simply ask you 
to look at it. It may even be a lot more serious than you 
think.
    Thank you, Dr. Holt. That concludes my questions. And the 
Ranking Member, the gentlewoman from Texas, is recognized for 
hers.
    Ms. Johnson. Thank you very much, Mr. Chairman. And at the 
end of my statement, I'd like to submit to the record a 
statement related to this very discussion with Dr. Bates.
    Chairman Smith. Okay. Without objection.
    Ms. Johnson. We hear a lot, Dr. Holt, of artfully crafted 
positions from nonscientists invoking science and the 
scientific process to support positions. Unfortunately, this is 
the kind of tactic that can generate confusion and doubt about 
the actual state of the scientific consensus. As a scientist 
and a former Member of Congress, how should science inform 
policymaking? And how can we as policymakers be sure that an 
agency like EPA is making agency actions based on the best 
available science? And how should we view disagreements between 
scientists over a particular study? And is it dangerous to 
assume that any such disagreement undermines the overall 
findings of such a study?
    Dr. Holt. Thank you, Representative Johnson.
    The approach is to ask whether the procedure, the process 
of science has been followed, not to second-guess the results 
or let one's dislike for an outcome lead one to challenge the 
outcome for unscientific reasons or to challenge the process 
because sometimes the results are either unclear or 
unpalatable.
    The process, as I was saying earlier, for developing 
regulations at EPA, is based on legislation that holds the 
science to be paramount. And it is I think the job of oversight 
to make sure that the processes of science are working, not to 
try to reform them or substitute other processes.
    So, for example, whether health studies that are used for 
regulations are based on something other than peer-reviewed 
scientific research, not whether different standards of 
releasing personal information should be used. It is whether 
the standards of the field are being observed. So, for example, 
the Harvard health study that was used for regulations on air 
contaminants had some data, personal information about deaths, 
about families that would not be made available on the internet 
openly. That's not to say that there's any conspiracy here of 
hiding data.
    Ms. Johnson. Thank you very much.
    Also, as a scientist and academic, you've had the 
opportunity to help shape the educations and careers of many 
young scientists and engineers who were interested in pursuing 
careers in the STEM fields. What type of impact would 
undermining the integrity of the scientific process by casting 
doubt on the accuracy or type of data that the EPA collects 
have on future scientists in the environment and health 
professional fields? And what impacts would it have on 
scientists and engineers broadly?
    Dr. Holt. Well, I've certainly talked with scientists who 
find it uncomfortable and unattractive to work in fields where 
they feel they are constantly second-guessed by politicians and 
not in a sense allowed to operate freely in their work. That 
has a--sometimes a chilling effect, but at least it generates a 
level of discomfort that I think probably drives some 
scientists to go into areas that are maybe less relevant to 
public policy. And that of course is a real loss. We need the 
best science applied to things that effect people's health and 
livelihood.
    Ms. Johnson. Thank you very much. My time is----
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Oklahoma, Mr. Lucas, is recognized for 
his questions.
    Mr. Lucas. Thank you, Mr. Chairman.
    Mr. Holmstead and Dr. White, last Congress the House passed 
one of my bills, the Science Advisory Board Reform Act. I'd 
like to visit with both of you about that body and where it 
might be improved. I'm concerned that the body has become 
perhaps an echo chamber for the EPA. Would you both agree with 
that concern? And how else would you suggest that the EPA 
better utilize the Science Advisory Board?
    Dr. White. Well, maybe I'll start.
    Mr. Lucas. Please.
    Dr. White. So, yes, the Science Advisory Board is one 
mechanism that the EPA has to conduct its peer-review process. 
As I mentioned in my comments, the peer review needs to be 
independent and objective. That means the making sure that the 
peer-review process has appropriate expertise, also the depth 
in the committee to evaluate the assessments at hand.
    There also needs to be clear balance and--in the reviews 
and the peer reviews of the people participating in that 
process. So you need to make sure that there's--if there's 
conflict of interest on the panel or if folks have actually 
made specific recommendations about a particular chemistry that 
they're evaluating on that panel, that that also is balanced in 
the review.
    What we've often seen most recently in the peer reviews 
conducted by the SAB is that EPA plays a prominent role in that 
peer-review process. So oftentimes, the conversations that are 
happening in that peer review get stymied by EPA's input during 
the peer-review process so it's not as independent as it should 
be.
    Additionally, currently in the peer-review process 
conducted under the SAB, there's not really an adequate 
opportunity for the peer-review panel to address or respond to 
peer review and public comments. And so there will be a large 
set of public comments that'll be submitted into the process 
for the peer review, and that information is often discounted 
or ignored. And there's really no volition by the peer-review 
panel or indication by the EPA that they need--that the peer 
review needs to address those public comments in any way.
    And finally, when the peer review actually generates their 
report and makes recommendations into the EPA, there's not a 
volition that the Agency has to abide by all of the 
recommendations that have been identified by that peer review. 
So there seems to lack a check-and-balance of--the peer review 
makes strong recommendations for improving the scientific 
quality of a particular assessment, but that information 
doesn't really get incorporated wholeheartedly into the final 
assessment.
    Mr. Lucas. Mr. Holmstead.
    Mr. Holmstead. I'll give just a quick answer. I do think 
it's problematic that it's the EPA Administrator, based on EPA 
staff recommendations, that make all these appointments. 
Because that's the way the process works, the folks appointed 
often have views that are consistent with the views of the EPA 
staff. And there's nothing wrong with that, but there does need 
to be additional views involved when there are other serious 
scientific points of view that are not represented on the 
panel. So I think there does need to be a way to ensure that 
there's a little more balance and that the science isn't so 
one-sided.
    I also want to just quickly make a--raise a particular 
concern. One of the subsidiary bodies underneath the SAB is 
known as the Clean Air Science Advisory Committee, the CASAC. 
By statute, they are supposed to look at certain issues and 
advise the Administrator on those issues, including the CASAC 
is supposed to advise the Administrator on the adverse economic 
and energy effects of certain regulations. CASAC has refused to 
do that for many years. Finally, the CASAC Chairman said I 
understand we have that obligation; the problem is we don't 
have anybody on our committee who has expertise in that, and so 
I look to the Administrator to appoint someone. And a few days 
later the Administrator said she had no interest in appointing 
anybody to do that issue even though that's supposed to be done 
by the statute.
    And so there needs to be a way to ensure that appointments 
are actually appropriate to look at the issues that Congress 
and others asked these committees to look at.
    Mr. Lucas. Clearly, Mr. Holmstead and Dr. White, the 
general public that depends on us to analyze the results of 
these studies, that depends on the EPA to formulate policies 
based on the input from these various groups, it doesn't 
necessarily matter so much to my constituency who is in charge, 
and that changes from Administration to Administration. But the 
quality of that input needs to be something that folks can be 
reassured about back home.
    So clearly, you both described a circumstance where work 
needs to be done, and I think the Committee will work 
legislatively on that.
    And with that, Mr. Chairman, I'll yield back the balance of 
my time.
    Chairman Smith. Thank you, Mr. Lucas.
    Without objection, I'd like to make a part of the record 
the entire comments by Dr. John Bates that were posted on 
February 4. The headline is ``Climate Scientist Versus Climate 
Data,'' as well as an article by Timothy D. Clark called 
``Science, Lies, and Video-Taped Experiments.''
    [The information appears in Appendix II]
    Chairman Smith. And the gentlewoman from Texas is 
recognized.
    Ms. Johnson. I'd like to also place in the record Dr. Bates 
today said that there was no manipulation. I would like to 
enter this article into the record, which contains his quote.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Chairman Smith. And the gentleman from Illinois, Mr. 
Lipinski, is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Dr. Holt, I want to thank you for your work here in 
Congress previously and your work at AAAS.
    As a scientist, although some people would--I'm a social 
scientist so some people question that, but as a scientist, I 
understand the important role of science. And I think we all 
agree that science should be what guides us in making decisions 
where that is appropriate. Politics should not be what is 
trumping science.
    I want to give you an opportunity--I don't know if there 
was anything else that you wanted to add about the controversy 
with Dr. Bates because I think you--the Chairman had run out of 
time. If there was anything you wanted to add to that or----
    Dr. Holt. Thank you. Of course, I don't know the internal 
disagreement, and it quite clearly is largely an internal 
disagreement. Dr. Bates was not part of one research group that 
produced the Karl--the data that became the basis for the Karl, 
et al., paper. And he does not like the way the other group 
conducted their research.
    What's most important is not that there was an internal 
disagreement within NOAA about how to handle this but that a 
number of other studies, including one most recently in one of 
AAAS's other publications Science Advances, have replicated the 
work, have come up with the same conclusions so that, you know, 
it's--it is not profitable, considering the process of science, 
to dwell on this one internal dispute about how to handle the 
data. If the Inspector General at NOAA wants to look at that, 
that's fine.
    If there are indeed erroneous or deceptive procedures 
followed in answer--in further answer to Chairman Smith, I know 
our journals will consider retraction, but there just doesn't 
seem to be anything like that now. There's nothing that 
suggests there are problems with that work. And most 
importantly, even Mr. Bates says this does not change the 
policy-relevant conclusions about climate change. So I think 
that's most important to get out there.
    Mr. Lipinski. Thank you. And while the--Dr. Holt, while the 
EPA is generally thought of as a regulatory agency--we're 
talking about research here--we know that it's research and 
science that's led to a number of important findings such as 
the link between air pollution and cardiovascular health and 
also has led to research at EPA that's led to innovations such 
as the development of low-cost sensors for nutrient pollution 
in our nation's water. So it's important that we understand 
that part of the Agency's mission is not just to regulate but 
also do research as another way to help protect health.
    Are we not sacrificing potentially some of this important 
work by meddling in EPA's practices or cutting its budget or, 
as some in Congress have--would like to do is completely 
cutting out the EPA? What would we be losing in research--in 
research, you know, even take it away right now from research 
on climate change but other research and the developments that 
have come out of that--out of the EPA?
    Dr. Holt. I think it is very important to have a scientific 
basis for the regulation for EPA to conduct research 
intramurally, to sponsor research outside of EPA because--take 
the National Science Foundation for example. They do not--you 
know, they do basic research that ultimately may affect 
toxicology studies and so forth, but they don't do toxicology 
studies. They don't do air pollution epidemiology studies. 
Those are things that EPA can best do both with internal 
scientists in an intramural program and through external 
sponsorship. And that would include, I would argue, social 
sciences. We at the AAAS believe that empirically based answers 
to questions that can be verified are science. That includes 
social science, as well as the earth sciences and physical 
sciences.
    Mr. Lipinski. Thank you. I yield back.
    Chairman Smith. Thank you, Mr. Lipinski.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And I'd 
like to, first of all, thank you, Mr. Chairman, for having the 
political courage to actually look into something that 
obviously is going haywire in our country. I mean, we--there's 
obviously something wrong in the arena, the scientific arena in 
our country. We have people telling us global warming is 
causing the drought in California. Now, it's global warming is 
causing the flooding in California. And whatever malady we have 
we end up having people telling us that the amount of CO<INF>2</INF> 
that's being put into the atmosphere is the ultimate culprit.
    And then we have all of these contradicting results. And 
that's what this is all about today is whether or not there 
really was a pause in the actual increase in the temperature of 
the planet since I think 1998 I guess it was. And the fact is, 
since 1998, we have had large increases in CO<INF>2</INF>, so 
if there had been a leveling off or it actually declined in 
temperature in some areas, that would mean the CO<INF>2</INF> 
theory is wrong. Okay. That's a basic scientific area that 
needs examination and truth associated with it.
    Because there's been so many things that have been told to 
us that seem contradictory, we have every reason to be 
skeptical that our scientific community is maintaining its 
integrity. Why wouldn't it? Why would there be some sort of 
loss of integrity among America's scientific areas? Eisenhower 
warned us of that years ago. Everybody always remembers 
Eisenhower warning us, and this was exactly correct, about the 
military industrial complex. And I will tell you that I think 
his words of warning there are something we should look at 
today because today, it even threatens the well-being of our 
country.
    But he also warned us about how government contracts become 
virtually a substitute for intellectual curiosity and warned us 
``The prospect of domination of the nation's scholars by 
federal employment, project allocations, and the power of money 
is ever-present and is gravely regarded.'' And just as he 
warned us against the military industrial complex, he warned us 
that our scientific--the integrity of our scientific endeavors 
could be undermined by this very same type of government 
interaction with our science community.
    And I think that you, Mr. Chairman, have been courageous in 
taking this on because there are people and very powerful 
forces at work in this world today that have their own agenda 
and are trying to justify it based on manipulating science, 
basically manipulating the people who did or did not get the 
scientific contracts to do specific research projects over the 
last 20 years. And I would hope that we'd actually call Mr. 
Bates in to testify. I hope that this is the beginning hearing 
to try to determine truth.
    What counts as truth? What counts is whether or not we have 
people whose scientific findings have actually been influenced 
by whether or not they get a government contract for research. 
And the story--there are stories of this that a number of 
scientists have come to me telling me where before a certain 
time period they were receiving government research contracts. 
Afterwards, after it became clear they didn't agree with the 
CO<INF>2</INF> theory, no more contracts.
    Well, this is all about the integrity of science in the 
United States of America. Dr. Holt, would you like to refute 
everything I just said?
    Dr. Holt. In nine seconds, Mr. Rohrabacher?
    Mr. Rohrabacher. That's it.
    Dr. Holt. Okay.
    Chairman Smith. The gentleman's----
    Dr. Holt. There has been no pause. It has been examined 
literally from many perspectives, and scientists are fiercely 
independent. They would resent horribly if they felt their work 
was being manipulated. It's not.
    Chairman Smith. The gentleman's time has expired.
    The gentlewoman from--I was looking for the gentleman from 
California, Mr. Bera, who's not here. The gentlewoman from 
Connecticut, Ms. Esty, is recognized for her questions.
    Ms. Esty. Thank you, Mr. Chairman. I want to thank our 
witnesses and our former colleague, Dr. Holt, for being with us 
here today.
    I want to follow up a little bit, Dr. Holt, with the 
scientific process. I think there--I hope and believe there is 
agreement on this Committee that sound science is absolutely 
essential to good decision-making, whether it's by the EPA, any 
other administrative agency, or Members of Congress.
    So I'd like to ask you a little bit--so there's been a lot 
of criticism from opponents of EPA regulations that sometimes 
EPA gives more weight to some studies than to others. Now, some 
see that and have characterized that as showing bias or 
favoritism. Can you explain a little bit more within the 
scientific process whether that's appropriate and why that 
might be appropriate to give more weight to some studies than 
others?
    Dr. Holt. Thank you, Representative Esty.
    Some studies are extensive, longitudinal, long-range, 
comprehensive studies. Others are more superficial. Which one 
do you think would be--which ones do you think would be more 
useful for making decisions about your children's health? It is 
true that sometimes short, brief studies uncover things and 
then they should be explored.
    My--in my opening remarks I was saying if you want to be on 
the right side of any issue, you would do well to go with the 
evidence, the best understanding at the time of what it's going 
to be, not some fringe idea. Scientists are always poking 
around the periphery trying to find new understanding, but we 
shouldn't think that that is the center of gravity.
    You know, take the climate change issue we're talking about 
this morning. This is an internal dispute about a detail of how 
you might measure land temperatures or water temperatures. It 
is not a departure from the general understanding of what's 
happening to temperatures in our globe. And so some studies are 
indeed more worthy of trust and more--a better basis for sound 
regulation than others.
    Ms. Esty. I'm glad you raised some of that because I am--
live in the State of Connecticut, and we have very high rates 
of asthma. We are downwind from many of the power plants that 
have caused real problems. And we see it in higher 
cardiopulmonary issues; we see it in asthma in children. 
There's a great deal of concern in my State that some of the 
longitudinal studies will not be allowed anymore under some of 
the proposals we're looking at in secret science, the--we 
have--the American Thoracic Society has provided some of that 
information.
    Can you explain and flesh out a little bit more--you 
referenced the longitudinal studies, and I know in my State 
there's a great deal concern because we've seen real health 
benefits from some of those changes that EPA has promulgated 
based on these kinds of studies. Can you flesh that out a 
little bit what that would mean for those studies?
    Dr. Holt. Thank you. You know, the--I guess you're 
referring more to the Secret Science Acts of previous 
Congresses. Now, I don't know what the Chairman or others will 
be proposing in this Congress, but in the past, the 
legislation, in the name of providing openness, has meant that 
certain kinds of studies could not be considered because some 
of the data in those studies--and I mentioned this Harvard 
study on atmospheric pollution--well, actually on community 
health--could not be used.
    It would also, for example, hinder fast response. For 
example, some of the data from the Freedom Industries spill on 
the Elk River in West Virginia recently--I mean, a couple of 
years ago--some of that data could not or was not publicly 
disclosable, and that hindered EPA in their response. Chairman 
Waxman at the time actually contacted the manufacturer of the 
chemical to find out what it was and--but the secret science 
research--Secret Science Act probably would have prevented that 
fast action.
    Chemically induced birth defects, no family wants the 
newspapers or the web pages to be listing information about 
their kids' birth defects. But if you're going to study birth 
defects you've got a look at actual kids and study the 
epidemiology. The Secret Science Reform Act presumably would 
have prevented that kind of necessary research.
    Ms. Esty. Thank you very much, and I see my time is 
expired.
    Chairman Smith. If the gentlewoman would yield real 
quickly, I think Dr. Holt knows as well as anybody that there's 
such a thing as redactions, and if it's personal information, 
that information can be redacted.
    I will go now to the gentleman from Florida, Mr. Posey, for 
his questions.
    Mr. Posey. Thank you, Mr. Chairman.
    Dr. White and all of you, I think we're all concerned when 
agencies promulgate rules that they say are based on sound 
data, and when they're asked to share the data, they say no, 
we're not going to tell you what the data is, you just have to 
accept our word for it.
    So, Dr. White, your written testimony you highlighted the 
peer-review process as a critical tool for insuring government 
policy is informed by sound science. I think we can all agree 
on the importance of objective peer reviews, which is why I'm 
alarmed by some of the reported problems with the current peer-
review process at EPA and other agencies. Can you briefly 
explain why a transparent peer-review process is so important 
to ensuring the quality of scientific information?
    Dr. White. Sure. Thank you very much, Congressman, for that 
question.
    So as I mentioned, peer review is a critical piece of the 
science evaluation process. Having a third-party group of 
scientific experts evaluate and look at EPA's assessments is 
very important to establishing trust from the public. And 
making sure that you have the appropriate expertise, one, on 
that peer-review panel, that the EPA actually heeds the advice 
that they get from those peer reviewers and incorporates that 
information into their final assessment is critical. I think 
what we've seen is that that has not always been the case for 
the peer-review process and we'd like to see that change.
    Mr. Posey. Okay. Follow-up, given what you've just told us, 
should agencies strive to allow the public to incorporate 
information from peer reviews into their comments on a proposed 
rule?
    Dr. White. So the Agency definitely should take into 
consideration the public comments that it receives. One part of 
the peer-review process is getting in public comments. Those 
comments come from scientific experts that have evaluated the 
available data and provided that information into the Agency. 
Unfortunately, in some of the programs, while they get the 
information that has been provided by the public, they don't 
incorporate or respond to that information.
    Specifically, in EPA's Integrated Risk Information System 
one of their processes in step five is actually a disposition 
of the public comments so actually writing down how they will 
respond or address peer review and public comments. 
Unfortunately, in the last three assessments that they put out 
they have not responded to those public comments, and so again 
this is kind of a violation of their own processes that they 
have currently in place.
    Mr. Posey. Thank you very much, Dr. White.
    Dr. Holmstead, continue on the same point. Can you discuss 
how both the scientific and rulemaking process is injured when 
interested and qualified parties are unable to comment 
meaningfully on science supporting a proposed rule?
    Mr. Holmstead. Well, thank you for your question and for 
calling me doctor. Unfortunately, I'm the only one on the panel 
here who is only a lawyer and--
    Mr. Posey. We don't need to waste time on that. Go ahead.
    Mr. Holmstead. In both policy questions and science 
questions I've certainly seen that thoughtful discussions from 
different points of view leads to better outcomes. And I just 
think it's--I think both on the regulatory side and the science 
side that EPA and the public would be better served if we 
actually had people who were well-qualified, who have different 
perspectives and different points of view, if they can try to 
resolve some of these issues instead of stacking some of these 
groups with people who share EPA's view.
    Mr. Posey. Okay. Well, thank you, Mr. Holmstead.
    Before my time runs out I'd just also like to thank the 
Chairman for the opportunity to explore this issue. I know a 
lot of us have been concerned about this, and a lot of our 
citizens are threatened by a torrent of bureaucratic attacks 
that they don't understand that affects their lives and their 
livelihoods every day. And, Mr. Chairman, I just again want to 
applaud you for taking this issue on.
    Chairman Smith. Thank you, Mr. Posey. Since you have a 
little time left, let me suggest to Mr. Holmstead that he seize 
on the juris doctor and start something new and go with the 
doctor.
    The gentleman from Virginia, Mr. Beyer, is recognized for 
questions.
    Mr. Beyer. Thank you, Mr. Chairman.
    You know, a lot of attention has been paid to the title of 
today's hearing ``Making the EPA Great Again.'' Under President 
Obama, the EPA took aggressive action to tackle climate change, 
which most scientists agree is the major threat to the planet 
and to the human race. It will not help anyone by disputing 
climate science with stories from white nationalist websites 
like Breitbart.com or tabloids like the Daily Mail.
    Scott Pruitt, the President's nominee to head the EPA, has 
sued the Agency 14 times over its effort to regulate the oil 
and gas industry and has not said whether he would recuse 
himself from ongoing cases against the EPA. This is not a 
recipe for greatness.
    The new Administration has scrubbed the EPA's website, has 
frozen its grants and contracts, has placed what amounts to a 
gag order on EPA employees, and requested names of employees 
who worked on climate change. A Trump transition official 
suggested cutting the Agency's workforce by 2/3 in a bill 
introduced by a fellow Republican will eliminate the EPA 
altogether. Mr. Chairman, this is not greatness.
    Alarming environmental disasters like revelations on the 
consequences of pesticides and cities covered in smog and 
rivers catching on fire spontaneously drove a Republican 
President, President Richard Nixon, to create the Environmental 
Protection Agency.
    And since then, the EPA's legacy has been one of great 
achievement. Among its most important accomplishments, the EPA 
banned the pesticide DDT. It significantly reduced levels of 
sulfur dioxide and nitrogen dioxide, the leading ingredients in 
acid rain. It mandated lead-free gasoline. It regulated toxic 
chemicals and established a national commitment to protecting 
our air and our water.
    The EPA's achieved so much in recent years, often over the 
misguided objections of this Committee and a Congress which has 
tried to make things worse. Mr. Chairman, Members of the fellow 
Science Committee, please, please listen to the Science 
Committee. Climate change is real and environmental problems 
can't be wished away or pretended away because they're going to 
affect us, our children, and future generations.
    This Committee should be leading the charge to protect the 
planet and our environment for future generations and instead, 
it attacks the credibility of scientists, casts doubt on 
accepted science, and makes life difficult for the people 
trying to solve urgent crises.
    The Science Committee's contribution now is like that of 
the Emperor Nero fiddling while Rome burned down around him. 
This is irresponsible and dangerous. It is not leadership and 
will not make the EPA or America great. In fact, I think we 
should retitle this hearing, that we keep the EPA great or 
maybe just save the EPA or protect our water.
    So with that, Dr. Holt, let me actually pose a question. 
Dr. Belzer said, and I quote from his written testimony, ``The 
EPA will strive for the highest estimate of risk that does not 
bring upon the Agency unbearable ridicule.'' How would you 
respond to Dr. Belzer's comment that they always take the most 
extreme version of risk in their calculations?
    Dr. Holt. You know, I'm not a historical scholar of EPA, 
but I can say that in the history that you touched on, because 
these--this legislation from past decades was based on science, 
it has managed to keep up with growing knowledge and improved 
understanding of human health and the effects on human health 
and on the environment of various kinds of water and 
atmospheric contaminants. And the record is very good.
    So, you know, I--I'm not a--you know, Dr. Belzer is--he is 
a scholar of benefit-cost analysis. He wants it phrased that 
way I think. I would not say that I am. But I do look at the 
results, and the results have been good.
    Mr. Beyer. Okay. Thank you.
    Juris Dr. Holmstead, in your testimony you wrote that 
referring to the Science Advisory Board Act that we took up in 
the last Congress, that by focusing on disclosure rather than 
disqualification that we would ensure that any potential 
conflicts, financial and otherwise, are publicly disclosed. But 
one of the objections we had to the act last time was that it 
in fact didn't do full financial disclosure. Are you aware that 
what will be intended this year will actually prompt full 
financial disclosure for people that would be appointed to that 
board?
    Mr. Holmstead. You know, I don't know anything about the 
bill that may be introduced this year, but I do believe that 
full disclosure, not only of financial conflicts but other 
financial interests, is an important part of the process. So 
again, I'm not familiar with legislation that may be 
forthcoming from this Committee, but I do think that's an 
important thing.
    Mr. Beyer. I hope you don't mind us using your testimony 
when the bill comes before us later so--thank you. Mr. Chair, I 
yield back.
    Chairman Smith. Thank you, Mr. Beyer. By the way, my cap is 
going to read ``Keep the EPA Honest.'' But I appreciate the 
gentleman.
    The gentleman from Texas, Mr. Weber, is recognized for his 
questions.
    Mr. Weber. Thank you, Mr. Chairman.
    To my friend there from Virginia I want to say I'm not 
going to quote any of those websites that you did. I'll choose 
an article by The Hill, not necessarily known as a right-wing 
newspaper, ``Drowning by EPA Overreach,'' June the 17th of '15 
by Will Coggin. ``The EPA recently found itself in hot water. 
The New York Times revealed the Agency colluded with 
environmentalist groups in a campaign to manufacture public 
comments in favor of a new rule that expands its own power. The 
Agency's actions and the shenanigans of its environmentalist 
supporters shed light on how a bad rule can flow through a 
regulatory process,'' not exactly your right-wing publication.
    But it does point to the fact of why there's questions and 
why, with legitimate oversight, notwithstanding my friend's 
comments about this Committee was wasting its time, why we have 
a legitimate oversight role to play and we should be and that 
doesn't make us a useless Committee.
    And I applaud the Chairman on his efforts to make sure that 
we hold the EPA accountable.
    Quick, Mr. Holmstead, how did he term you? My dearest 
Holmstead? Was that what he said?
    Mr. Holmstead. Most--many people refer to me that way.
    Mr. Weber. I've got that, and I'm glad to hear you all have 
an intimacy there that few do.
    The EPA will often bury--well, let me do this. Adam Peshek 
from another publication said sometime back in 2011--actually, 
he said in an article two examples of EPA overreach that 
``Measures taken to protect the environment are necessary and 
welcomed, but concerns for air quality should always be 
measured against the larger context of the economy and real-
world achievability.'' So I think the fact that we're here 
having this discussion gives us pause for concern that we ought 
to be able to have these discussions and question the science.
    The EPA will often bury the cost of its regulations while 
inflating benefits. Measure what Adam Peshek said against real-
world achievability. Do you think, Mr. Holmstead, it would 
improve regulations if EPA were more transparent in its cost-
benefit analysis?
    Mr. Holmstead. I do believe that transparent cost-benefit 
analysis is important. I also believe it's important that the 
Agency fairly present the results because in some cases, if you 
dig into the details, you'll find that EPA has been relatively 
transparent, but the way they present their conclusions gives 
you a very different picture than----
    Mr. Weber. You can understand why, when articles come out 
from The New York Times that they've colluded with 
environmentalist groups to further their own power-making 
authority, their own rulemaking authority, that the Chairman of 
the Science Committee might have cause for concern and say we 
might ought to have some oversight of that. You'd understand 
that?
    Mr. Holmstead. No, absolutely, and I do think that was 
inappropriate. I was surprised to hear about that comment.
    Mr. Weber. Thank you. Let me move on to the next. Over the 
past eight years, based on what we just talked about, EPA has 
skewed its regulatory cost-benefit analysis to accomplish 
policy goals. Do you think this undermines public confidence in 
their analysis and could you understand why?
    Mr. Holmstead. I think that the short answer is absolutely. 
It would be better for everyone, for the public, for all of us 
in this room if there could be more confidence in some of the 
conclusions that we get from EPA and other regulatory agencies, 
and that's why I think some of the reforms that you're talking 
about are very important.
    Mr. Weber. Thank you. I appreciate that. And I'm going to 
go on to Dr. White.
    Dr. White, I'm concerned that the EPA has stacked its 
Science Advisory Board and Clean Air Science Advisory Committee 
with supporters, those that we talked about. The New York Times 
article said they colluded with environmentalists, for example. 
The EPA rolls out a regulation that says that it's supported by 
its scientists but no one is there to offer an opposing view, 
no one. So do you think there should be more balance on these 
advisory committees in your opinion, Dr. White?
    Dr. White. Absolutely. Balance is one of the keys that's 
important for having a peer review. You want to make sure that 
you have enough folks on the peer-review committee and that 
there's appropriate balance so that you have discussion about 
what EPA has done. If you only have one side of the story being 
told at the meeting or you only have one set of views on the 
peer-review panel, then you're not getting a full picture and 
you're not really having a robust peer review.
    Mr. Weber. So to you as a scientist, what does that say to 
you about those scientists that they really believe in an open 
and fair process or that they're pretty much consigned to just 
those who support their already predetermined analyses, for 
example?
    Dr. White. I think what it shows is that there's just not 
appropriate balance on the committee----
    Mr. Weber. Yes.
    Dr. White. --and so you really have to make sure that if 
you build a committee that only has one set of views, then 
you're likely----
    Mr. Weber. Right.
    Dr. White. --going to get a certain answer----
    Mr. Weber. You need a devil's advocate.
    Dr. White. Right.
    Mr. Weber. Yes. Thank you. I yield back, Mr. Chair.
    Chairman Smith. Thank you, Mr. Weber. The gentlewoman from 
Nevada, Ms. Rosen, is recognized for her questions.
    Ms. Rosen. Thank you, Mr. Chairman. And I want to thank 
everybody here today for their thoughtful testimony on what is 
clearly a very controversial, and all slogans aside, we need to 
listen to the scientists who create a hypothesis, go through 
scientific method, come up with a conclusion. No matter who we 
have on the panel, there really is a process there and that's 
what we need to pay attention to.
    So my question is for Dr. Holt. Although we would never 
want to replicate or should we replicate natural disasters or 
manmade disasters like the Gulf oil spill, an earthquake, what 
have you, I want you to talk a little bit about how excluding 
one-time events, things that can't be repeated nor should be, 
will impact the EPA and we won't get the maximum scientific 
return if we don't study them.
    Dr. Holt. Thank you, Representative Rosen, and I'm pleased 
you've chosen to serve on this Committee.
    It's not just one-time events in the cases of emergencies, 
for example, disasters. Many studies cannot be repeated in 
exactly the same way. The populations have changed. Those 
people have grown up or moved away or the forest that you're 
studying has been overtaken by an invasive. Whatever it is, you 
sometimes cannot repeat it the same way. And the Secret Science 
Act is based--as it has previously been introduced has been 
based on a misunderstanding of how science works.
    You--the gold standard is to find other approaches to come 
up with the same conclusions. Rarely can you repeat an 
experiment in exactly the same way, and so this cry that you 
have exact data that somebody else will take and put it through 
their computer instead of your computer, yes, sometimes that 
makes sense, but what makes much more sense is that you 
approach the problem with a new perspective.
    And so that's not what the--that's not where this secret 
science legislation is heading. It's a misunderstanding of what 
it means to replicate experiments. So I think that--well, 
anyway, you've said it.
    Ms. Rosen. Well, thank you. So I guess you would say then 
that the goal of science is to take these studies, collaborate, 
innovate, and inspire the next scientist to take the foundation 
of what you have put there to look at new hypotheses and new 
ways to find solutions or analysis of a situation.
    Dr. Holt. Science doesn't make progress by doing the same 
thing over and over again. Science makes progress by looking at 
problems from new perspectives and testing it this way and that 
way and the other way and ultimately converge on an 
understanding that is more reliable than you have from one 
experiment. And that's how science works.
    It also means, of course, that the conclusions might have 
to be refined. The--you know, I know it bothers some Members of 
this Committee that sometimes they hear that different 
standards might be set. Well, yes, as the science progresses, 
you may change.
    Ms. Rosen. Where the data takes you.
    Dr. Holt. And you should change----
    Ms. Rosen. Yes.
    Dr. Holt. --but not on the basis of political whim or 
personal preference.
    Ms. Rosen. Thank you. I appreciate that. And I yield back 
my time.
    Chairman Smith. Thank you, Ms. Rosen.
    And the gentleman from Arizona, Mr. Biggs, is recognized 
for his questions.
    Mr. Biggs. Thank you, Mr. Chairman. I appreciate you 
addressing this issue. I thank each member of the panel for 
being here today.
    I would like to just shift discussion briefly to an issue I 
think we haven't heard much about today and that's the Waters 
of the U.S. or the WOTUS rule. The EPA has consistently claimed 
that the WOTUS rule would not significantly expand its 
jurisdiction, but I look upon that claim with some skepticism 
because of what I'm hearing from my constituents in Arizona.
    And so I'm asking Mr. Holmstead, right now, do you agree 
with the EPA that the Waters of the U.S. rule is not a 
significant expansion of their jurisdiction over waters and, in 
the case of Arizona, dry wash beds?
    Mr. Holmstead. No, I think it's pretty clear that the WOTUS 
rule does significantly expand EPA's jurisdiction. They--what--
part of their claim is that they've cast a broad net and then 
you can come in and somehow be excluded, but that process takes 
a lot of time and effort. But the jurisdiction that EPA claims 
is certainly much broader than we've seen before.
    Mr. Biggs. It seems to speak to an idea that perhaps there 
can be an institutional bias, and I would categorize it as 
something in line with something like institutional 
maintenance, and in this instance it's to regulate to expand 
jurisdiction. And I think you've just indicated that you agree 
with that perhaps maybe not that there's a bias but certainly 
the rule is. Do you see a bias there?
    Mr. Holmstead. I think institutionally, EPA--and this is 
not just EPA. I think this is regulatory agencies at federal 
and local and state levels, but that there is a tendency for 
them to want to increase their regulatory power basically 
because they want to have an opportunity to impose their own 
will on many of these choices. So I think there's no question 
that we've seen EPA expand its regulatory power or at least try 
to expand its regulatory power over the years.
    Mr. Biggs. Many manufacturers have indicated they're going 
to be impacted by this particular rule, the Waters of the U.S. 
rule. Can you explain what areas of manufacturing that might be 
impacted by this and any other anticipated results that we 
might see of WOTUS being applied to them?
    Mr. Holmstead. You know, most of the concerns that I have 
heard have been with regard to not existing manufacturing 
plants but people who want to build anything that's new, 
whether that's a transmission line or a pipeline or a new 
facility. If it turns out you want to locate whatever you're 
building in an area that's included within this broad 
definition, it becomes much, much more difficult to do that.
    Mr. Biggs. So I guess, Mr. Holmstead, to be more direct, 
we're talking really about permitting issues really become a 
major problem with this expansion of rules?
    Mr. Holmstead. Yes, that's absolutely right. The fact that 
you need government approvals to--and in some cases many 
different approvals for many different agencies I think is a 
shame. It's become very hard to build new things in this 
country, and I think that kind of permitting reform--not only 
reforming the WOTUS rule but other permitting programs to get 
them to function more efficiently would be a huge step in the 
right direction.
    Mr. Biggs. Thank you. Thanks, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Biggs.
    And the gentlewoman from Oregon, Ms. Bonamici, is 
recognized.
    Ms. Bonamici. Thank you, Mr. Chair.
    Welcome back, Dr. Holt. It's nice to see you again. We 
certainly miss you on the Committee, but I very much appreciate 
the work you do with the AAAS. And before I ask my question, I 
want to make sure that all of our colleagues know about the 
event that the AAAS helps to organize each year, the Golden 
Goose Awards. This is an award that is earned by groups of 
federal hardworking researchers whose seemingly obscure 
federally funded research has led to major breakthroughs in 
national security, public health, computing, energy, and the 
environment. So it's a great annual bipartisan event and I hope 
all of our colleagues join us to support scientists and 
federally funded research.
    I want to align myself with the remarks by my colleague 
from Virginia, Mr. Beyer. Dr. Holt, as you know, our planet is 
facing the real consequence of anthropogenic climate change, 
and I'm deeply disappointed that we're not beginning this 
session focusing on how the EPA can address that critical issue 
as part of its mission to protect human health and the 
environment.
    In my home State of Oregon, the renewable energy industry 
has created thousands of jobs and is growing, and I wanted you 
to follow up on--I know Representative Esty asked you about the 
human health effects. Can you also talk about the economic 
benefits of addressing climate change?
    Dr. Holt. I know that there have been many criticisms over 
the years of the cost of environmental regulation and the cost 
of addressing climate change as one of the biggest 
environmental challenges. And most of that debate pays 
insufficient attention to the cost of not addressing it, the 
costs in lives and dollars. And that goes for climate change, 
as well as regulations restricting pollutants and other 
environmental hazards. And there's an extensive literature on 
it. It's difficult, of course, to calculate because some of the 
benefits and some of the costs are second and even third order 
and indirect.
    But it's pretty clear, I would say, that a cleaner 
environment such as we have obtained through environmental 
regulation implemented by the EPA--that a cleaner environment 
is economically better in addition to being better for human 
health.
    And for climate, you know, it remains to be seen how hard 
we're going to work to bring climate change under control and 
how expensive it will be if we don't do a good job----
    Ms. Bonamici. And I want to talk----
    Dr. Holt. --and the benefits from the industries in trying 
to do a good job.
    Ms. Bonamici. Thank you. And I wanted to follow up on a 
discussion that was already brought up today about the--a piece 
of legislation that has been introduced that proposes 
abolishing the Environmental Protection Agency and basically 
like going back to the days when States would regulate clean 
air and water.
    So I know that under the Obama Administration there were 
partnerships between States and the EPA. This is something 
that's going to take federal and international solutions. Can 
you talk a little bit about what would happen going back to the 
days when there was no EPA if we let States regulate clean air 
and clean water?
    Dr. Holt. Well, Representative Beyer has touched on this. 
Rivers caught fire, people lived in levels of smog that we only 
see in China these days. Well, actually they're probably seeing 
it a little bit worse even. But the--and so my response to that 
is the regulations by and large have worked, and that's what we 
should be looking at.
    Ms. Bonamici. And, Dr. Holt, also in the 114th Congress the 
House considered legislative proposals that would've applied 
the research restrictions that are on the EPA from this so-
called Secret Science Reform Act to research efforts at all 
agencies. If such a proposal were to become law, what would the 
effect be on the research mission not only of the EPA but our 
other federal agencies as well? And this Committee has 
jurisdiction over the NSF, for example.
    Dr. Holt. Well, there isn't an agency in the government 
that doesn't have significant science components. We at AAAS 
wrote to every one of President Trump's nominees for a Cabinet 
position, and I said in the letter ``I hope you realize that 
you are heading up a science agency.'' The Attorney General, 
yes, he would benefit by having a better understanding of 
forensic science. The Housing and Urban Development, yes, there 
is a social science and other science that is done by the 
Department but also science that must be used by the Department 
if they're going to make good decisions.
    The point is science-based policymaking is important in 
every aspect of our government. And if the scientific process, 
the free communication, the free collaboration, the ability to 
operate without intimidation is compromised anywhere, it will 
hurt our government's functioning, it will harm the economy and 
human welfare.
    Ms. Bonamici. Thank you very much. My time is expired. I 
yield back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you. Thank you, Ms. Bonamici.
    And the gentleman from Indiana, Mr. Banks, is recognized 
for his questions.
    Mr. Banks. Thank you, Mr. Chairman. And thanks to the each 
of the four of you for being here today to educate us and 
discuss ways that we can look at reevaluating the role of the 
EPA in 2017 and beyond.
    Growing up and fighting for and subsequently representing 
northeast Indiana before coming to Congress in the Indiana 
State House has made me aware of the many ways in which the 
EPA's policies impact hardworking constituents in my district 
with citizens from every walk of life, from farmers to small-
business owners, workers, and even family members. I've heard 
from many of these constituents over the years raising concerns 
directed at the broad, burdensome, and relatively clandestine 
authority exercised by the EPA.
    So therefore, I've been a firm believer that our 
government, where authorized, should implement environmental 
policies based on sound science that focus on innovation rather 
than regulation. Sound science is the foundation of sound 
regulatory decision-making.
    So with that, I'm fortunate to have an opportunity on this 
committee--and I thank the Chairman for giving me the 
opportunity on this committee--to be a part of investigating 
and reforming the EPA's regulatory power.
    And with that, I will direct my first question to Mr. 
Holmstead. In your written testimony you highlighted the 
importance of both scientific accuracy and transparency in the 
EPA's decision-making process. On that note, should the risk 
assessment process and the cost-benefit analysis process of the 
EPA be examined and reformed to make it more scientifically 
based and objective? And with that, what should Congress's role 
be in reforming that process?
    Mr. Holmstead. I'll give you a short answer and you might 
want to ask Dr. Belzer, who really has had much more experience 
in risk assessment. I think it is appropriate for Congress to 
step in and to institute some reforms that could improve the 
process. And I want to be clear. I think EPA does a lot of very 
important, good things, but I also know from my own personal 
experience that there are some things that really do need to be 
reformed.
    We do enjoy a cleaner environment in large part because of 
EPA, but in some ways we pay a lot more than we should for the 
protection that we get. There are better ways to do these 
things, and I think that's one of the things that this 
Committee is looking at is are there better ways for EPA to do 
its job.
    Mr. Banks. Okay. Thank you. And, Dr. White, there used to 
be a time where EPA's Science Advisory Board and Clean Air 
Science Advisory Committee would issue reports with dissenting 
views. Now, it seems like those bodies just come together in a 
general consensus that almost always aligns with environmental 
or conservation groups. Do you think the EPA's Scientific 
Advisory Boards could do a better job at encouraging a broader 
or more transparent range of views?
    Dr. White. Absolutely. The process needs to be balanced. I 
mentioned that earlier in my testimony today that if you have 
balance on the committee, you're going to get dissenting views, 
and that information needs to be captured and considered by the 
Agency. That's really the value of having an open and 
independent peer-review process is so that you get a really 
robust review of EPA's evaluation of the science and what it's 
going to use to make those decisions before they are finalized.
    Mr. Banks. Okay. Thank you. And back to you, Mr. Holmstead. 
Do you think it would help if the EPA presented its regulatory 
impact analysis in a more concise or easier-to-read format?
    Mr. Holmstead. You know, I'm not quite sure how to answer 
that question because when you--sometimes when you make things 
too simple, you don't do justice to the complexities involved. 
So I agree that there's room for improvement, but again, you 
want to be sure that these documents--that this documentation 
gives people enough information so that they understand that 
things aren't always quite as black-and-white as the Agency 
would make them appear.
    Mr. Banks. And then one final question for you that you 
might or might not agree with. The EPA has historically, in my 
opinion, had a shoot-first style of regulating. The Agency 
issues a regulation before it is fully thought through whether 
it could be accomplished. How does this unnecessarily create 
burdens for businesses and manufacturers or would you agree 
that it does?
    Mr. Holmstead. Oh, sure, I mean, I think they're--I've long 
been critical of one part of the Clean Air Act that imposes a 
legal requirement on States and local governments that in many 
cases is impossible to meet. It's just not achievable. And that 
has all kinds of implications for businesses that want to 
locate there, and I just don't think it makes any sense to give 
an agency authority to mandate things without just--without 
considering whether they're achievable.
    Mr. Banks. Thank you. Thank you, Mr. Chairman. I yield back 
my time.
    Chairman Smith. Thank you, Mr. Banks.
    The gentleman from California, Mr. McNerney, is recognized.
    Mr. McNerney. Well, I thank the Chairman for holding this 
hearing.
    It seems to me that the issues of contention today would be 
how science is conducted, meaning does it follow standards, 
does it follow standards that science usually follows, is it 
peer-reviewed, and is it influenced by politics or not, and, on 
the other hand, how science is used in rulemaking.
    So my first question will go to Dr. Holt. Would the Secret 
Science Reform Act ensure that science follows science 
standards that's used at the EPA?
    Dr. Holt. No, I think the problem is it's an attempt to 
substitute a different view of what is meant by openness and a 
different view of what is meant by sharing than is the standard 
in the practice of science. And my earlier plea today was 
that--I'm not saying oh, trust the scientists. I'm saying trust 
the process
    Mr. McNerney. Right.
    Dr. Holt. --and don't try to rework the process because you 
think you'll get better results because you won't.
    And with regard to the Science Advisory Committee, I mean, 
that is a Science Advisory Board. It will not function better 
by having fewer scientists on it. It is supposed to look at 
science. But in the name of balance and diversity, it--there's 
an effort to make it, well, less scientific, and that, it seems 
to me, not the way to go. That's not what the SAB is for. There 
might be other places in the Department where you bring in 
industry representatives to talk about the cost of the 
regulations to the industry, but I don't think the Science 
Advisory Board is the place to do that.
    Mr. McNerney. Well, would the Secret Science Reform Act 
lessen the influence of politics in the scientific process?
    Dr. Holt. No, I mean I think it's fundamentally 
substituting a politically originated revision of the process 
for the scientific process that has grown up over the ages.
    Mr. McNerney. Thank you. The second part is how science is 
used in rulemaking. My first question goes to you, Dr. Belzer. 
What are the standards used in the cost-benefit analysis? And I 
know you don't like cost-benefit. I know you like benefit-cost, 
but I'll use it anyway. What are the standards used for human 
health and human life in cost-benefit analyses?
    Dr. Belzer. We have 30 to 40 years of experience doing 
that. This is within the field of benefit-cost analysis. There 
isn't any controversy, regardless of one's political 
orientation, as to whether that ought to be done. There are 
technical arguments about how to do it, but there isn't any 
dispute in the field about whether it ought to be done and the 
effort ought to be put into doing it.
    It's the--again, think--if you think----
    Mr. McNerney. Well, I mean, what I'm asking is----
    Dr. Belzer. --of economics as a scientific field--and I 
should point out that a lot of physicists feel the same way; 
they become economists----
    Mr. McNerney. Right, but what I'm asking is what are those 
standards? How do you include human life and human health in 
cost-benefit analysis? How do you do it?
    Dr. Belzer. The standard mechanism for dealing, let's say, 
with premature mortality, which is the largest component of 
benefits for most environmental regulations, is to estimate the 
number of premature lives that are lost. And there's premature 
death and then there are--there's an extensive economic 
literature on valuing the premature death. And so that goes 
into the benefits assessment.
    And I should point out EPA is very fond of this. EPA uses 
this all the time. This is not a matter of controversy among 
economists. EPA has used this same literature to estimate the 
benefits of the Clean Air Act, and they've done so repeatedly. 
So the controversies with that had to do with things that are 
at a more technical level, not at a principal level.
    Mr. McNerney. So what is the cost or benefit of premature 
deaths?
    Dr. Belzer. I'm sorry--
    Mr. McNerney. Well, I mean, how much does it cost? What 
does a premature death cost?
    Dr. Belzer. What does it cost to----
    Mr. McNerney. Right, in your analysis.
    Dr. Belzer. I'm sorry. I'm mostly deaf, so I need clarity 
in----
    Mr. McNerney. So you say it's just a technical matter. 
Well, then----
    Dr. Belzer. Yes.
    Mr. McNerney. --what is the cost of a human life in your 
cost-benefit analysis?
    Dr. Belzer. What value--agencies differ in the values that 
they use. I believe that EPA's figure is on the order of 9 or 
10 million dollars per premature life--essentially, the value 
of saving or preventing a premature death. I think the 
Department of Transportation uses a number that's quite a bit 
lower than that. OMB provides guidance on how to do it but 
doesn't tell them what to do. And the circumstances may well 
vary so there isn't a fixed value. There are underlying 
procedures about how to estimate for a given situation, and 
those procedures are pretty much the same across agencies. But 
agencies do differ.
    Mr. McNerney. So there's leeway then?
    Dr. Belzer. There is leeway but it's not leeway in terms of 
the methods. It's leeway in terms of where the data and 
analysis lead you. This is the same principle Dr. Holt is 
talking about. Economics is a science in my view, and so we 
apply scientific tools, scientific method to developing these 
estimates.
    Mr. McNerney. The gentleman's been----
    Dr. Belzer. There are things that are hard to estimate----
    Mr. McNerney. --generous in letting me run over, so I'm 
going to yield back at this point.
    Chairman Smith. Thank you, Mr. McNerney.
    The gentleman from Alabama, Mr. Palmer, is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Dr. Holt, and Dr. White, I have very high regard for your 
professions. I just want to ask you, are you saying that, for 
instance, the scientists who work on the Intergovernmental 
Panel on Climate Change for those whose work has been in regard 
to climate change should be held in high regard subject to same 
peer review of everybody else but given respect? Is that--Dr. 
White?
    Dr. White. Yes.
    Mr. Palmer. Okay. How about you, Dr. Holt?
    Dr. Holt. Yes, I think so. I'm not quite sure I understood 
your question but--
    Mr. Palmer. Well, I'm just asking if these people are----
    Dr. Holt. --the scientists who work on the 
Intergovernmental Panel on Climate Change that I know 
personally I highly respect, and when I look at the work that 
has come out of that, I would say that's good science.
    Mr. Palmer. And would you say that's true of the other 
scientists that work on that? I mean, they have to be held in 
pretty high regard to be added to that panel.
    Dr. Holt. Yes.
    Mr. Palmer. Okay. I just want to introduce this for the 
record, Mr. Chairman, that there's a number of scientists who 
worked on the Intergovernmental Panel on Climate Change who now 
fiercely dispute what the panel has produced in terms of their 
projections on climate change. In fact, one of them says, 
``Warming fears are the worst scientific scandal in history. 
When people come to know the truth--what the truth is, they 
will feel deceived by science and scientists.''
    So if I may, I'd like to submit that for the record.
    [The information appears in Appendix II]
    Mr. Palmer. Dr. Belzer, there's been a lot said here about 
asthma and health as a result of human activity. I just want to 
share some things with you. From 1980 to 2012, our gross 
domestic product increased 467 percent. Vehicle miles traveled 
went up 94 percent. Populations increased 38 percent. Energy 
consumption is up 22 percent. Emissions, however, are down 50 
percent. But the interesting thing is that--and these are EPA 
stats, these are U.S. government stats--is that even though our 
air quality and water quality are demonstrably better, 
particularly air quality in regard to asthma, than they were in 
the '60s and '70s and '80s, asthma rates have exploded. Can you 
give any explanation for that?
    Dr. Belzer. I am familiar with some of that literature, and 
I suspect but don't know that one of the things that's changed 
is the definition of asthma has expanded. And if you increase 
the--if you make the definition broader, you're going to have 
more people in it. So that certainly could be part of it.
    But I do agree that this is a conundrum with declining air 
pollution that you would have increasing asthma is certainly 
contrary to the expectation and belief of many people who think 
or believe that asthma is caused by air pollution. So this is a 
problem. This is one that good science ought to be put to it, 
and we ought not to impart upon it a policy judgment first as 
to what the answer is.
    Mr. Palmer. Okay. Here's what I want to point out. First of 
all, I'm not a climate denier, as some claim. I think that it 
is caused by natural variations. I think there's enough science 
out there that indicates that that's a viable position to have. 
But also in regard to what's been said in this committee that 
it's clear, I think, from particularly what some of my 
colleagues on the other side have said that they want to link 
asthma to human activity, pollution. And in every respect--I 
mean, lead, carbon monoxide, sulfur dioxide, the volatile 
organic chemicals, nitrogen dioxide, PM10, PM2.5, everything is 
down, yet they want to make it about that. And I think that's a 
misrepresentation of science, the very thing that we're trying 
to avoid here.
    And I also have an article, Mr. Chairman, I'd like to enter 
into the record from Scientific America to your point, Dr. 
Belzer. We don't know what causes asthma. There's everything--
hypothesis from hygiene to obesity to sedentary lifestyles to 
more--to poor housing quality for lower-income families. So I 
really do think where we're trying to go with this committee, 
to be able to validate the science, to get the politics out of 
it is the place we need to be.
    I yield back.
    Mr. Lucas. [Presiding.] The gentleman yields back.
    Without objection, the gentleman from Illinois, Mr. Foster, 
and the gentlelady from Hawaii, Ms. Hanabusa, are authorized to 
participate in today's hearing. They've been selected to serve 
on the Science Committee but have not officially yet been 
appointed.
    Seeing no objection, the Chair now recognizes Mr. Foster 
for five minutes.
    Mr. Foster. Thank you, Mr. Chairman. And if it's--it's my 
understanding that just as we speak I think I'm likely to be 
officially appointed to the committee but----
    Mr. Lucas. You're right.
    Mr. Foster. Yes. So, Dr. Holt, you know something about 
Science magazine, and there was an interesting article a couple 
weeks ago entitled ``The Polluted Brain,'' which had a very 
interesting discussion of the growing evidence for the link 
between particulates that are about an order of magnitude's too 
small to be detected by normal air-quality monitoring equipment 
and dementia and Alzheimer's and had some actually rather 
alarming numbers in it. The--and as well as an honest 
discussion of the scientific uncertainty in this.
    And the potential economic impacts of this are huge. About 
roughly 1/3 of all of our Medicare spending is projected to be 
due to Alzheimer's within a couple of decades. You know, if 
Alzheimer's did not exist, there would not be long-term 
financial stress on Medicare. And so this is a--it's a huge 
issue to the extent that it is attributable to this.
    And there's also difficulty that is traditionally not--
these are things--instead of 2.5 microns and above, these are 
200 nanometers and below. And so that there is a significant 
belief that they penetrate through the blood brain barrier and 
actually do damage to the brain. It's well-documented that they 
cause things like asthma, cancer, and recently, heart disease. 
But now, the fact that they could be responsible for a 
significant amount of that is I think a source of growing 
concern and potentially a subject that this Committee will be 
discussing a lot and the EPA should be raising.
    And so I raise it because it's sort of a prototypical 
example of how science is a moving target in environmental 
regulation. And it strikes me that there are two dangers that 
we have, one of which is that, as soon as this danger begins to 
have some scientific plausibility associated with it, large 
commercial interests will try to suppress that science. I mean, 
we saw that in cigarettes and a number of other areas.
    And so I was wondering if any of you could comment on the 
best way to prevent that from happening because there will be a 
large number of manufacturing products, consumer products, and 
so on that will be responsible for exposing people to these 
very small particulates and, you know, this may cause changes 
in the business model. And so I was wondering if you--any of 
you have comments on how to make sure that that does not happen 
in a way that happened with cigarettes. Or can't it happen 
anymore?
    Dr. Holt. Well, Representative Esty asked earlier why are 
studies some studies more creditable--credible than others? 
And, you know, one can certainly discount studies that seem to 
be driven by special interests. It's not enough to just 
disclose where your funding comes from but that at a minimum 
should be done.
    But then, as you know in the tobacco case and in some of 
the other cases, it's dependent on finding forensic evidence, 
you know, internal communications of collusion. That was 
certainly true when Henry Waxman exposed the collusion in the 
tobacco industry. So, you know, there's no easy way that I know 
of to do that.
    Mr. Foster. And Dr. Belzer, to sort of follow up on 
Representative McNerney's question about--you know, there's a 
number--I think you cited $10 million per human life or some 
number like that. How do you value one year of suffering from 
Alzheimer's? Is there a number associated with that when we do 
the cost-benefit or is it only deaths that we typically 
consider?
    Dr. Belzer. It is certainly true that much--or most of the 
research effort has gone into estimating benefits from 
mortality. The reason--logical one is that mortality is the 
worst health effect that one normally can imagine. I am 
hesitant to agree with that because Alzheimer's is one of those 
things that might well be worse for a lot of people. My mother 
endured almost 20 years of it before her death in 2012, and it 
is----
    Mr. Foster. As my mother did.
    Dr. Belzer. --but coming--but figuring out how to estimate 
it, it requires some resources to be devoted to it. I don't 
think there are any economists who would shy away from the 
effort. They would find it extremely interesting and 
challenging and would put forth the best possible objective 
effort to do so in collaboration with the neurobiologists who 
would be best equipped to help us.
    Mr. Foster. Would that effort to get to the real scientific 
and economic analysis be easier or harder if the size of the 
EPA staff was cut by factor of three?
    Dr. Belzer. I'm not sure that it has any correlation at all 
with the size of the EPA's staff.
    Mr. Lucas. The gentleman's time is expired.
    The Chair now recognizes the gentleman from Texas, 
Subcommittee Chairman Mr. Babin, for five minutes.
    Mr. Babin. Thank you, Mr. Chairman. I appreciate it.
    Risk assessment guidelines will enable the EPA to achieve 
consistency in the conduct of chemical risk assessments and 
will help avoid manipulation of evidence and assumptions to 
achieve predetermined results. It is my understanding that 
existing risk assessments guidelines are out of date and do not 
offer critical guidance that relates to current and evolving 
risk sciences.
    It's also painfully apparent that the EPA risk assessors do 
not consistently follow all aspects of their existing 
guidelines. For example, the Science Committee's investigation 
into EPA's assessment of glyphosate found significant flaws in 
the scientific process of reregistering chemicals that warrants 
further examination.
    I believe that updated risk assessment guidelines should 
contain clear criteria for causal analysis so that there is as 
little room as possible for subjective judgment that reflects 
the policy leanings of the analyst. The guidelines should 
identify, through careful evidence integration, the conclusions 
that have the strongest scientific support.
    And I'd like to start with you, Dr. White. Do you believe 
the EPA should update and revise its risk assessment 
guidelines? Do you believe that the development of updated risk 
assessment guidelines and adherence to these guidelines will 
inject more objective scientific rigor into EPA's chemical risk 
assessments? And will that make the development of risk 
assessments more transparent?
    Dr. White. Thank you, Congressman, for that question. 
Transparent and consistent framework for evaluating chemicals 
is necessary. It needs to be transparent and, like I said, it 
needs to be consistent and science-based. As the science 
changed, risk evaluations need to be updated. So do the 
processes that are used.
    I mentioned 2016 Congress passed the Lautenberg Chemical 
Safety Act, which requires the EPA to make its decisions using 
the best available science and a weight-of-evidence process. 
What that means is a weight of evidence utilizes the--all the 
available science. It clearly identifies the criteria that it 
will use to identify the available data. It evaluates the 
quality of that data.
    And I think it's important to note when we talk about the 
quality of the data, just to go back to something Dr. Holt said 
about studies funded by industry and whether they should be 
discounted, I do not feel that a study should be discounted 
solely based on the funding authority. It should be reviewed 
and evaluated based on the merits of the actual scientific 
context and the study design and the value that that 
information will provide to the assessment.
    When EPA or any other agency evaluates the available 
scientific information, it needs to determine whether or not 
they have high-quality information, looking across the board at 
all studies. One of the reasons that it's important to do a 
weight-of-evidence process is because it allows the Agency to 
look across the board at all the available evidence to evaluate 
the quality of that evidence and then use that information to 
integrate and make decisions. This is information both on 
available human data, on the animal data that might be relevant 
to human exposures, and any mechanistic data that will tell us 
about how a chemical may be acting in the body.
    Mr. Babin. Okay. And how would you suggest risk assessment 
guidelines account for uncertainties in the scientific 
evidence? When and how is it appropriate to use default 
assumptions?
    Dr. White. So when scientific information is available, so 
when we actually have human data or animal data, that 
information should be used instead of a default. When we're 
looking specifically at uncertainties, sometimes in research we 
have animal data and we may not have available human 
information. So we need to have and be able to account for how 
that animal data is relevant or not relevant to the human 
exposure incident.
    Mr. Babin. Okay. And then one last thing. Do you believe 
that exposure assessments should be included in revised risk 
assessments guidelines?
    Dr. White. Exposure is a key piece of the risk assessment 
process, so not only do you need to look at the toxicity 
information but also whether or not that toxicity is relevant 
to actual human exposures.
    Mr. Babin. Okay. Thank you very much. Would anybody else 
like to add to that?
    Dr. Holt. Mr. Babin, if I may----
    Mr. Babin. Yes.
    Dr. Holt. Well, first of all, in your first question, it 
may be true that the risk assessment guidelines need to be 
updated, but I just wanted to make sure that it didn't seem 
that I was implying that industrial research should be 
discounted on the face of it. Maybe Dr. White thought I said 
that. I don't--I certainly didn't mean that.
    Mr. Babin. Okay. Thank you. Anybody else? With that, I will 
yield that the balance of my time, Mr. Chairman. Thank you.
    Mr. Lucas. The gentleman yields back one second.
    The Chair now recognizes the gentleman----
    Mr. Babin. Generous.
    Mr. Lucas. --from the big First District of Kansas, Mr. 
Marshall, for five minutes.
    Mr. Marshall. Thank you so much, Mr. Chairman. My first 
question is for Dr. White.
    Dr. White, I represent the largest agriculture-producing 
Congressional district in the country, and I'm so proud that 
the air we breathe there, the waters that my children and 
grandson swim in are cleaner today than they were when I was 
growing up. As you can imagine, our farmers and ranchers 
utilize quite a range of tools, including herbicides and 
pesticides.
    And kind of a follow-up to Dr. Babin's thoughts or his 
question on glyphosate, I'm new here so I was trying to 
understand it was in a report, it was out a report, but at the 
end of the day it looked like the conclusion was glyphosate 
Roundup was not a carcinogen. It's been around since 1960 and 
somehow that was taken out of the report and I'm just trying to 
fill in a few loose ends. Why was it left out of the report or 
taken out of it?
    Dr. White. So I can't speak to exactly why it was included 
or taken out of the report, but what I will tell you is this is 
why it's so important to have a consistent framework for how 
science evaluations are conducted is that it's clear and 
transparent. You can see very clearly what processes EPA would 
have used to evaluate glyphosate, what science they used to 
make their conclusions, and it would be right there in front of 
you so there would be no question about whether or not that 
data was accurate or valid.
    Mr. Marshall. Okay. Thank you. My next question is for Dr. 
Belzer. I'm trying to understand these regulatory impact 
analyses. RIAs is another acronym for me. When they report RIAs 
to the OMB, is there any type of independent peer review before 
it's submitted?
    Dr. Belzer. I would say sometimes there is an internal peer 
review conducted by an agency, but generally, that's not the 
case. There's--basically, OMB is performing the peer review. 
And one of the problems with that from my perspective is that 
OMB doesn't disclose the results of its peer review. It works 
for the President and so its advice is proprietary to the 
President. I think that things would be a lot better if OMB 
actually disclosed its independent reviews of these documents, 
and I've advocated that since I worked there and told to mind 
my own business.
    Mr. Marshall. Do you think independent peer reviews would 
be of any help to maybe not every report but certain number of 
them randomly selected?
    Dr. Belzer. Certainly, the larger ones ought to be. I think 
that the existence of an effective peer-review process improves 
the quality of what agencies produce in--I mean, just simply 
the knowledge that you're going to be peer-reviewed goes a long 
way toward improving quality. Then, as Dr. White's pointing 
out, the panel--having a good peer-review panel is very 
helpful.
    I'm the only person here who is actually a member of a 
Science Advisory Board panel, and I know the processes at least 
for my panel how it goes on. It is a challenging enterprise 
with a panel of 15 members for typically only two might be 
knowledgeable about a given issue that's actually on the table.
    So I think the peer-review process does need to be 
restructured to make sure that there really are experts in 
individual areas and that they don't--and that they have 
intellectual diversity. I don't care at all about who they work 
for, but intellectual diversity is the key toward teasing out 
the best scientific knowledge.
    Mr. Marshall. Okay. My last question is for Mr. Holmstead. 
You look bored there. No one's asked you a question. It has to 
do with WOTUS, Waters of the U.S. I had the pleasure of sitting 
down with Senator Bob Dole six, seven months ago and had the 
conversation--he was one of the original co-authors of WOTUS, 
and of course I had to ask him, ``Well, what does navigable 
stream mean to you and what was your intention?'' And of course 
he said, ``Well, you know, there's only three navigable streams 
in Kansas, and it's very obvious what we meant.''
    And now there's concern for my farmers--that WOTUS is 
actually managing land. If you regulate water to such a great 
extent it feels like you're regulating land even though the 
Agency said it doesn't want to regulate private property. So I 
guess my question is how can the Agency deny that by expanding 
vastly the definitions of WOTUS that it's effectively limiting 
the activities that can occur on private property? I guess I'm 
trying to understand. WOTUS has expanded so much under the 
current interpretation that it's impacting private property.
    Mr. Holmstead. You know, people are--I don't think anybody 
at EPA could dispute that they're regulating private property. 
I mean, that's what it's all about. So even if you own your 
land, even if you owned your land for 100 years, if somebody 
comes in and says there's a wetland on your land, you have to 
get a permit to--and you can be prevented from using that land. 
That's why there's been so much debate and discussion over what 
really is a wetland and this most recent rule that's been 
referred to as WOTUS really does significantly expand the net, 
expand the jurisdiction that--the amount of land that's covered 
by that process.
    And I think that's inappropriate, and I also think it's 
the--well, I think it's probably illegal. But I also think this 
is an area where Congress could really step in and provide some 
guidance because this is a debate that's gone on for many, many 
years now with EPA making several stabs at trying to, you know, 
define the type of land over which EPA and the Corps should 
have jurisdiction. And that's been difficult to do, but EPA has 
tried several times and the courts have sent it back saying no, 
you've gone too far.
    And I assume that this new EPA will make another stab at 
that and try to do something that's more reasonable and that's 
more understandable for people who really do care about what is 
a wetland.
    Mr. Marshall. Thank you for being so candid.
    Mr. Lucas. The gentleman's time is expired. The Chair now 
turns to the Ranking Member for a unanimous consent request.
    Ms. Johnson. Thank you very much. Mr. Chairman, I'd like to 
enter these letters, comments, and op-eds from the Asbestos 
Disease Awareness Organization, American Lung Association, the 
American Thoracic Association, and The National Environmental 
Health Association for--on their comments on EPA.
    The article--the Intercept article ``Republicans are Using 
Big Tobacco's Secret Science Playbook to Gut Health Rules,'' 
and in the introduction to the record of the four peer-reviewed 
studies in the record that collaborate the findings of the NOAA 
study authored by Dr. Tom Karl and published by the Science 
magazine in 2015.
    Mr. Lucas. Seeing no objection, so ordered. The information 
will be added to the record. Thank you.
    [The information appears in Appendix II]
    Mr. Lucas. As we conclude this hearing, I would like to 
take a moment and note I think on behalf of myself and Chairman 
Smith, to my old colleague Dr. Holt, Rush, on the issues 
involving Dr. Bates' concerns, I believe that it would be good 
for you to take the message back to the AAAS that they owe a 
fellow scientist making such claims the honor of withholding 
judgment until the matter is fully investigated. It's a very 
relevant and important issue.
    And with that, I thank the witnesses for their testimony 
and the Members for their questions. The record will remain 
open for two weeks for additional written comments and 
questions from the Members.
    This hearing is adjourned.
    [Whereupon, at 1:15 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by The Hon. Jeffrey Holmstead

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. Kimberly White

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by The Hon. Rush Holt

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. Richard Belzer

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                              Appendix II

                              ----------                              


                   Additional Material for the Record



               Documents submitted by Committee Chairman
                             Lamar S. Smith
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                             
                             


            Documents submitted by Committee Ranking Member
                         Eddie Bernice Johnson
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                        
                         


          Documents submitted by Representative Randy K. Weber
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
          


           Documents submitted by Representative Gary Palmer
           
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
           


                                 <all>
</pre></body></html>
